<html>
<title> - RECOMMENDATIONS AND REFORMS FROM THE INSPECTORS GENERAL</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







        RECOMMENDATIONS AND REFORMS FROM THE INSPECTORS GENERAL

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 15, 2017

                               __________

                           Serial No. 115-50

                               __________

Printed for the use of the Committee on Oversight and Government Reform









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
 
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

28-508 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                      
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Stacey E. Plaskett, Virgin Islands
Mark Walker, North Carolina          Val Butler Demings, Florida
Rod Blum, Iowa                       Raja Krishnamoorthi, Illinois
Jody B. Hice, Georgia                Jamie Raskin, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Jimmy Gomez, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                    William McKenna General Counsel
     Julie Dunne, Government Operations Subcommittee Staff Director
                 Drew Baney, Professional Staff Member
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 15, 2017................................     1

                               WITNESSES

The Hon. Michael E. Horowitz, Chair, Council of the Inspectors 
  General on Integrity and Efficiency, Inspector General, U.S. 
  Department of Justice
    Oral Statement...............................................     5
    Written Statement............................................     7
The Hon. Kathy A. Buller, Executive Chair, Legislation Committee, 
  Council of the Inspectors General on Integrity and Efficiency, 
  Inspector General, Peace Corps
    Oral Statement...............................................    14
    Written Statement............................................    16
The Hon. John Roth, Inspector General, U.S. Department of 
  Homeland Security
    Oral Statement...............................................    23
    Written Statement............................................    25

                                APPENDIX

Response from Mr. Horowitz, Inspector General, U.S. Department of 
  Justice, to Questions for the Record...........................    62

 
        RECOMMENDATIONS AND REFORMS FROM THE INSPECTORS GENERAL

                              ----------                              


                      Wednesday, November 15, 2017

                  House of Representatives,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 10:15 a.m., in Room 
2154, Rayburn House Office Building, Hon. Trey Gowdy [chairman 
of the committee] presiding.
    Present: Representatives Gowdy, Duncan, Jordan, Amash, 
Gosar, DesJarlais, Massie, Meadows, Walker, Blum, Hice, 
Russell, Grothman, Hurd, Palmer, Comer, Mitchell, Cummings, 
Maloney, Norton, Clay, Lynch, Cooper, Connolly, Kelly, 
Lawrence, Watson Coleman, Demings, Krishnamoorthi, Raskin, 
Welch, DeSaulnier, and Gomez.
    Chairman Gowdy. The committee will come to order. Without 
objection, the chair is authorized to declare a recess at any 
time. I will recognize myself for an opening statement, then my 
friend from Maryland, and then we'll recognize the witnesses.
    When defending against waste, fraud, and abuse, Inspectors 
General play a critical role within our Federal agencies. While 
congressional oversight is essential, the 73 inspectors general 
best understand their agency issues and can clearly identify 
areas in need of reform. In fiscal year 2015, IGs saved 
taxpayers roughly $37 billion on the total budget of $2.7 
billion, which is a tremendous return on every dollar given to 
the IGs.
    In December 2016, the Inspectors General Empowerment Act 
was signed into law with bipartisan support. That was an effort 
lead by the ranking member, Mr. Cummings, and the gentleman 
from North Carolina, Mr. Mark Meadows. Designed to support and 
strengthen IG independence, the IG Empowerment Act ensures 
Federal investigators have full and prompt access to all agency 
documents needed for the investigatory process.
    In addition, the Act streamlines investigative procedures, 
improves transparency by instituting new reporting requirements 
and increases efficiency to IG operations.
    While the Act implemented much-needed reforms, the IG 
community still has legislative priorities which could 
strengthen oversight of Federal programs and resolve challenges 
facing the inspector general community. The IG community is 
also currently facing the challenge of filling IG vacancies. Of 
the 73 IGs across the Federal Government, 14 positions remain 
vacant because either no nominee has been appointed, or the 
appointed nominee still awaits Senate confirmation. For 
example, the Department of the Interior has not appointed a 
permanent IG since 2009. Still, no nomination has been made to 
fill the position. In case of the National Security Agency, 
which has been without a permanent leader since May 31st of 
2016, it's been 147 days since this administration announced a 
nominee on June 19, 2017. The administration has worked toward 
filling the vacancies by announcing an intent to nominate or 
officially nominate individuals to fill vacancies, but these 
nominees still required a confirmation process.
    When a vacancy occurs in an IG office, the agency head 
appoints an acting AG. These appointed, often perform excellent 
work, but they are inherently less independent and less 
effective than one who is Senate confirmed. While the Senate 
and administration are the key players in insuring timely 
nominations and confirmations, the House will work with them to 
help speed appointments, however and wherever we can. The work 
of our inspectors general is too important for temporary 
leadership in the investigatory process.
    In order to ensure successful investigations, Federal 
investigators must have access to information. Too often, IGs 
perform excellent oversight work, but they can't do it fully if 
an individual retires or resigns and removes them from the IG's 
jurisdiction. This leads to incomplete audits, incomplete 
investigations, or, in some instances, closed investigations.
    One solution is to grant IGs testimonial subpoena 
authority. This would allow an IG to subpoena witnesses as 
necessary when performing the functions of the IG Act. Leaving 
office would no longer allow a Federal employee to avoid 
testifying about potential misconduct, or, frankly, any fact 
pattern.
    We look forward to working with our colleagues in the 
minority and the Senate to create a solution to grant IGs 
testimonial subpoena authority. I thank our witnesses again for 
your service to our country and for your appearance today.
    With that, I would recognize the gentleman from Maryland.
    Mr. Cummings. Thank you very much, Mr. Chairman. And thank 
you for calling this hearing. Inspectors general serve a 
critical role by providing an independent check on the 
executive branch. They investigate waste, fraud, abuse and they 
provide recommendations to improve agency performance. I want 
to thank each of the IGs who is testifying here today. And I 
want to thank all of the IGs who do a phenomenal job in the 
various agencies.
    The work that you and your staff members do is more 
important now than ever. The Oversight Committee is the primary 
investigative body in the House, and we rely tremendously on 
IGs in conducting our own oversight work.
    Let me address one key example: In 2015, this committee 
launched a bipartisan investigation, following revelations by 
John Roth, who is present with us today, the IG at the 
Department of Homeland Security. Mr. Roth identified grave 
concerns about security deficiencies in our Nation's airports. 
As part of our investigation, our committee heard from numerous 
whistleblowers who bravely reported security problems at 
airports, management challenges faced by the Transportation 
Security Administration. Some of those individuals allege that 
TSA retaliated against them for making those disclosures.
    In March, Carolyn Lerner, who was serving as a special 
counsel, testified before our committee that TSA was refusing 
to provide information about whistleblower cases. She also 
testified that TSA was impairing the ability of the special 
counsel to fully investigate those cases.
    On March 6, 2017, our former chairman, Jason Chaffetz, sent 
a letter to TSA requesting the information that TSA was 
withholding. The acting general counsel at DHS responded that 
the agency, ``Objects to the demand,'' end of quote, that it 
provides these documents to the committee.
    So on March 17, 2017, the committee issued a subpoena for 
these documents, but DHS--listen to this, DHS still refused to 
turn over the documents. On March 31st, 2017, the acting 
general counsel sent a letter to the committee writing that the 
agency is, and I quote, ``not in a position to produce those 
documents at this time.'' That was in March.
    To address this refusal, Chairman Chaffetz and I joined 
together in sending a bipartisan letter to the acting 
administrator of TSA warning that, ``Failure to comply with a 
congressional subpoena may result in serious consequences for 
you,'' end of quote. We also requested transcribed interviews 
with three TSA employees, the deputy administrator, and acting 
assistant administrator and the chief counsel. None of these 
witnesses voluntarily complied with our request, which we made 
in May.
    In the meantime, Mr. Roth has continued in his oversight 
work, and he has issued two classified reports in recent weeks 
with critical warnings that many security problems remain 
unresolved. Listen up, listen up, I've often said that if we 
find out about our problems with Members of Congress, and then 
we fail to act on them, when we have been given the authority 
by the American people, then we become a part of the problem.
    So I appreciate that the chairman, Chairman Gowdy, agreed 
to join me in sending a letter to TSA to request the documents 
related to the IGs' findings. But that request has nothing to 
do with the documents that we are being--that are being 
withheld about the whistleblowers. We must also take action to 
compel TSA to comply with the committee's subpoena, which TSA 
has been defying for 8 months.
    Yesterday, I sent a letter to Chairman Gowdy laying all of 
this out and requesting the committee enforce its subpoena for 
these documents. I also requested deposition subpoenas for the 
three TSA officials who have refused, refused, refused to 
participate in transcribed interviews. These are issues my 
staff have been raising for several weeks, if not months.
    Here's the bottom line: I do not believe that we can afford 
to wait. The security of air travel is not a partisan issue. 
Every person who flies on an airplane, works in an airport, or 
drives to the airport to pick up a family member wants to know 
that they will be safe. God forbid if something terrible were 
to happen, I want to know that we did everything, everything 
single thing in our power to conduct vigorous oversight to 
protect the American people. That is what we are sworn to do.
    And in addition to that, if we do not protect these 
whistleblowers, if we let the agency defy the subpoena, and we 
allow the agency to flout our interview requests, that will 
have a negative impact on whistleblowers across the board. And 
all of us know in this committee that a lot of our work and a 
lot of the waste, fraud, and abuse that we've been able to 
discover have been because people have sat at that table, many 
times with tears in their eyes, trembling, they simply wanted 
their government to work properly, but they came forward 
bravely to offer evidence so that we could do our jobs. So, it 
will act as a deterrent to anyone who is thinking about coming 
forward to report dangerous security failures or anything else, 
and that, in turn, will damage our oversight efforts in the 
operations of our government.
    And with that, I thank you, Mr. Chairman.
    Mr. Chairman.
    Chairman Gowdy. Yes, sir.
    Mr. Cummings. Mr. Chairman, for all these reasons pursuant 
to House rule 11, clause 2(k)(6), I hereby move to subpoena TSA 
officials Huban Gowadia, Francine Kerner, and Steven Cohen to 
appear before this committee. And it is public knowledge, Mr. 
Chairman, that these folks allegedly were a part of the 
retaliation. That is my motion.
    Chairman Gowdy. Well, I want to thank my friend from 
Maryland for a couple of things. Number one, for the passion 
with which he spoke on this issue. I've heard you do it before 
and I know you mean every syllable of what you said. We should 
not have to resort to compulsory process to gain access to 
documents or witnesses, but I want every agency that's paying 
attention to know that we will. And you have my commitment--we 
are in one accord, you have my commitment Mr. Cummings that 
when you and I see each other in Baltimore, we're either going 
to have a date or a voluntary interview, or we're going to have 
a date for an involuntary interview, but we're going to have a 
date with an interview, to either gain access to the 
information or have a much better understanding of the legal 
basis by which this committee is being denied the information. 
You have my commitment on that.
    Mr. Cummings. With that, Mr. Chairman, let me be clear so 
that everybody in the room knows when he says ``in Baltimore,'' 
he's not coming for a walk in the park, although, I'd like for 
him to come to my city to do that, we have a--that's our next 
hearing, members of the committee.
    With that, Mr. Chairman, I take your word. I want to thank 
you for working with me and trying to resolve this issue. Mr. 
Chairman, I--it is embedded in the DNA of my brain, watching 
people tremble at that table, trying to share their views and 
knowing that they are--that they could be harmed. And so with 
that, I withdraw my motion and I look forward to what we have 
on the 28th. Thank you.
    Chairman Gowdy. Well, they have a powerful persuasive 
advocate in you. And we are in one accord on this and I 
appreciate you working with me on it.
    With that, all of us would welcome our witnesses, I will 
introduce you en bloc, and then recognize you individually for 
your 5-minute opening.
    From my left to right we are pleased to have The Honorable 
Michael Horowitz, Chair of the Council on Inspector General on 
Integrity and Efficiency, and Inspector General at the U.S. 
Department of Justice; The Honorable Kathy Buller, Executive 
Chair of Legislative Committee on the Council of the Inspectors 
General on Integrity and Efficiency, and Inspector General at 
the Peace Corps; and The Honorable John Roth, Inspector General 
at the U.S. Department of Homeland Security. Welcome to all of 
you.
    And with that, IG Horowitz, you are recognized.

                       WITNESS STATEMENTS

             STATEMENT OF HON. MICHAEL E. HOROWITZ

    Mr. Horowitz. Thank you, Mr. Chairman, Ranking Member 
Cummings, Members of the Committee. Thank you for inviting me 
to testify today. The IG community appreciates this committee's 
steadfast bipartisan support, including your efforts last year 
to get the IG Empowerment Act adopted.
    Because of our statutory independence, IGs are uniquely 
positioned to identify waste, fraud, and abuse. As the chairman 
indicated in fiscal year 2016, the IG community identified 
potential cost savings of over $45 billion, compared to our 
community's budgets combined of about $2.7 billion, that 
represents about a $17 return on investment.
    In addition, IG investigations resulted in almost 5,000 
successful criminal prosecutions, over 1,500 civil actions, 
over 6,000 suspensions and debarments, and over 4,000 personnel 
actions. And I am pleased to report that for the first time, 
all public IG reports can be found in one place at a website 
that the Council of IGs launched on October 1st called 
oversight.gov.
    We also launched on that date our first ever Twitter 
account at oversight.gov. We hope that everyone who is 
interested and cares about our work in the IG community visits 
oversight.gov and follows us on Twitter.
    The passage of the IG Empowerment Act greatly enhanced our 
ability to conduct independent oversight. The Act made it clear 
that IGs must be given unimpeded and timely access to all 
agency records. And since the passage of the Act, I am not 
aware of any IG office facing a legal impediment to IG access. 
However, there remain concerns by several IGs about the 
timeliness of our access to information. Foot dragging by 
agencies delays our work, impacting our ability to identify 
important issues that could save the taxpayers significant 
amounts of money, and it's wholly unacceptable. CIGIE will 
continue to work on these issues and we appreciate the 
continued support of this committee in those efforts.
    The IG Empowerment Act also granted IGs an important tool 
in our fight in improper and duplicative payments, an exemption 
from the Computer Matching Act. I can report to you that the IG 
community this year has been moving forward to use this new 
tool in appropriate and effective ways, and I expect it will 
demonstrate real results because of your giving us that 
authority.
    As IG Buller will outline, we believe that some additional 
authorities would further enhance our ability to be identify 
wasteful and improper spending. One example is testimonial 
subpoena authority, as the chairman mentioned. One--my office 
continues to face issues with regard to getting access to 
information and testimony from former DOJ employees in our 
investigations, audits and reviews, including in recent 
whistleblower retaliation matters and sexual harassment claims. 
Having subpoena--testimonial subpoena authority would allow us 
to obtain that critical evidence.
    Another area of potential concern to the IG community, 
which IG Roth will discuss, is the impact that flat or 
declining budgets would have on our ability to conduct the kind 
of oversight that the public expects from us. Given our track 
record of returning to the Federal Treasury far more money than 
we are budgeted, and our important role in public safety in 
national security matters, we believe careful consideration 
should be given before impacting our budgets.
    Finally, I'd like to briefly mention an issue that affects 
my office in particular. Unlike IGs throughout the Federal 
Government, the DOJ OIG does not have authority to investigate 
allegations of misconduct by all DOJ employees. While we have 
jurisdiction to review misconduct by agents and nonlawyers in 
the Department, the IG Act does not give us that same authority 
of the Department prosecutors when they act in the capacity as 
lawyers. In those instances, the IG Act grants exclusive 
investigative authority to the DOJ's Office of Professional 
Responsibility. There's no principled reason why FBI misconduct 
is investigated by a statutorily independent IG, while 
prosecutorial misconduct is overseen by a DOJ component head 
appointed to the Department's leadership. I want to thank 
Congressman Hice for cosponsoring a bill with Congressman 
Richmond and Congressman Conyers that would fix that issue and 
address that anomaly.
    This concludes my prepared statement, I would be pleased to 
answer any questions the committee may have.
    [Prepared statement of Mr. Horowitz follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Gowdy. Thank you, Mr. Horowitz.
    IG Buller.


               STATEMENT OF HON. KATHY A. BULLER

    Ms. Buller. Chairman Gowdy, Ranking Member Cummings, 
distinguished members of the committee, thank you for inviting 
me to appear before you today and discuss the work of the 
inspectors general to promote integrity and efficiency.
    As both the inspector general for the Peace Corps and the 
chairs of legislation committee for the Council of Inspectors 
General on Integrity and Efficiency, my testimony today 
underscores our appreciation for the bipartisan support we've 
received from this committee and from Congress.
    For almost 40 years, IGs have helped hold Federal agencies 
accountable, protected whistleblowers, exposed corruption and 
mismanagement, and helped Congress make informed decisions 
about the agencies within their purview.
    This work is made easier thanks to the Inspectors General 
Empowerment Act, which reaffirms a fundamental authority under 
the Inspector General Act of 1978 that ``all'' means ``all,'' 
that IGs may access all materials and documents necessary for 
our oversight work.
    Thanks to the bipartisan efforts of this committee and its 
staff, the passage of the Inspectors General Empowerment Act 
restores what Congress intended. IGs must have timely access to 
all of the materials and documents necessary to oversee their 
agencies.
    At the Peace Corps, I am pleased to report that the IG 
Empowerment Act has restored critical access that allows us to 
oversee the Peace Corps' response to sexual assaults. This 
helps to ensure volunteers who experience sexual assault 
receive the care and services they deserve. I've seen an 
appreciable positive change towards a culture of openness and 
cooperation. I hope this emboldens whistleblowers who are 
reluctant to step forward in the past.
    The IG Empowerment Act also provides the tools to ensure 
independence and improve our oversight authority. In 
particular, exemptions from the Computer Matching Act and the 
Paperwork Reduction Act insure IG independence and help us more 
efficiently prevent and detect fraud and conduct timely surveys 
without being subject to approval from the agencies we oversee.
    The IG council has taken steps, including creating guides 
and working groups to help IGs use these new tools thoughtfully 
and responsibly. I'm encouraged by IG initiatives to use 
computer matching, such as the one initiated by the IGs at the 
Department of Labor and VA to detect fraud in Federal benefit 
programs. Our growing capabilities will improve the data 
informed oversight sought by Congress.
    The legislation committee assists Congress as it considers 
legislation to improve IGs' ability to carry out oversight of 
taxpayers. I want to briefly mention three priority items that 
the IG community has identified to further improve our ability 
to oversee Federal operations. First, IGs would like to work 
with Congress to protect information that can be used to 
exploit cybersecurity vulnerabilities. Our reviews, including 
congressionally mandated reviews, identify weaknesses in 
Federal IT systems. Public disclosure of this information could 
be a roadmap for malicious entities. While classified and law 
enforcement information is protected from public disclosure, 
there is no single protection that covers all IT security 
vulnerability information.
    Second, as other IGs have testified before, the resignation 
of Federal employees during the course of an audit, 
investigation, or review, has substantially hampered our work. 
Most IGs lack the ability to compel the testimony of witnesses 
who have information that cannot be obtained by any other 
means. This authority was unanimously supported by this 
committee and the House during the last Congress, so it was not 
included in the bill that became law. We are encouraged by this 
committee's continued consideration and bipartisan support of 
testimonial subpoena authority for IGs.
    Finally, legislative reforms have the potential to turn the 
Program Fraud Civil Remedies Act from an underutilized tool 
into an effective mechanism to recover fraud expenditures. 
CIGIE has proposed several straightforward changes to help 
agencies use the Act in cases of small dollar fraud or qui tam-
related cases where DOJ declines prosecution. If used to its 
full potential, the recoveries could be significant.
    The inspector general community is grateful for the 
steadfast bipartisan support we have received from Congress. 
Collaboration with this committee and its dedicated staff, both 
for the Inspector General Empowerment Act and other initiatives 
has been incredibly constructive. From our training initiative, 
``Meet the IGs,'' to the regular technical assistance we 
provide, our proactive efforts to keep each other informed have 
yielded productive results for the taxpayer.
    We look forward to continuing to be an important resource 
to this committee and other congressional stakeholders as you 
pursue your oversight and legislative work.
    I would be happy to answer any questions you might have.
    [Prepared statement of Ms. Buller follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Chairman Gowdy. Thank you, IG Buller.
    IG Roth.


                  STATEMENT OF HON. JOHN ROTH

    Mr. Roth. Chairman Gowdy, Ranking Member Cummings, and 
Members of the Committee, thank you for inviting me here today 
to testify.
    I believe I speak for the entire OIG community in 
expressing my gratitude to the committee for its leadership and 
championing the IG Empowerment Act and the cause of vigorous 
and independent oversight.
    OIG's reporting relationship to Congress is a key feature 
of the Inspector General Act. Inspectors general can only 
recommend to our agency, but we cannot direct our agency. 
Therefore, congressional oversight plays a critical role in 
ensuring department operations. That which gets paid attention 
to, simply put, gets fixed.
    Probing fact-based oversight, whether done internally by an 
inspector general, or externally by a congressional committee, 
can help bring about positive change. The critical and 
skeptical review of programs and operations, conducted in full 
view of the public, acts as the disinfectant of sunlight to 
insure improved transparency, accountability and efficiency in 
government.
    We appreciate that Congress, and this committee in 
particular, recognizes the value of inspectors general, and 
willingly steps up for OIGs by passing legislation that 
empowers us. Simply put, without the support of Congress and 
the significant independence and access provisions contained 
within the IG Act, we would be unable to our job.
    Let me give you an example: After conducting our most 
recent test, covert tests at airport security checkpoints, we 
identified vulnerabilities with the TSA screener performance, 
screener equipment, and associated procedures. Ultimately, we 
made eight recommendations in our classified report that, when 
implemented, should improve TSA's performance in this area.
    Within weeks of our report being issued, this committee had 
already followed up with the Department, reaching out to the 
Acting Secretary, to determine what actions TSA is currently 
taking to address issues we raised in our report.
    This committee has held numerous hearings on other aspects 
of TSA's programs and operations and have assisted in bringing 
senior level focus to some of those challenges. Additionally, 
this committee is well aware of the work we've previously done 
regarding Secret Service workforce issues and the oversight of 
this committee was integral in getting the Department to focus 
on those issues and change the culture there.
    Without such vigorous oversight and congressional interest 
in evaluating programs, there's less motivation to enact 
difficult institutional change. Unfortunately, many OIGs, 
including my office, faced cuts in the President's fiscal 2018 
budget request. Some of these cuts are incremental, but some 
offices are cut quite drastically. These budget cuts can 
present an ongoing challenge for many in the inspector general 
community. The vast majority of our expenses are used to pay 
our auditors, inspectors or investigators. So budget cuts have 
a dramatic impact on operations, particularly with the small IG 
offices. Without the resources to do the job, no matter how 
strong the provisions in the IG Act with regard to independence 
and access to information, and no matter how strong the support 
from this committee and others, money can always be used as a 
weapon to diminish our ability to conduct the active and 
independent oversight that Congress and the public deserve.
    These proposed cuts make little sense, given the 
contributions inspectors general make. The Brookings Institute 
recently issued a report which analyzed the financial impact on 
government when OIGs budgets are cut, and found that cuts to 
OIG budgets actually costs the government money, and 
contributes to the Federal deficit. In fact, Brookings 
concluded, and I quote, that ``OIGs often function as revenue 
positive institution, entities that bring in more revenue than 
they cost.''
    And as Mr. Horowitz noted in his testimony, he said his own 
data showed a 17-to-1 ratio of money spent by OIGs to money 
saved by our recommendations. So cutting the inspectors general 
doesn't make any sense economically.
    And that 17-to-1 figure actually understates our 
performance, because it does not measure improvements that 
result in increased national security and public safety. Much 
of our best work, audit inspections report that shed light on 
dangerous or ineffective programs, for example, don't carry 
with it a cost savings, but the value of the American taxpayers 
is incalculable.
    Finally, let me permit me to publicly acknowledge the 
auditors, inspectors and investigative agents that worked not 
only for me at DHS IG, but throughout the IG community. They 
come to work every day with a mission to make our government 
work better, to be more effective and efficient, and to ensure 
integrity. Being an independent entity within the organization 
whose job it is to ask the hard questions is a tough job, but 
without the dedication of the men and women who do the work, we 
would not be able to point to the successes that we have talked 
about this morning.
    Mr. Chairman, that concludes my testimony. I'm happy to 
answer any questions you or members of the committee may have.
    [Prepared statement of Mr. Roth follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
    Chairman Gowdy. Thank you, IG Roth.
    Pursuant to committee rules, all witnesses will be sworn 
before they actually begin to testify, so I would ask you to 
please rise and raise your right hand.
    Do you solemnly swear or affirm that the testimony you are 
about to give should be the truth, the whole truth and nothing 
but the truth, so help you God?
    Let the record reflect all witnesses answered in the 
affirmative. You may be seated.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you for 
your leadership on this particular issue. Obviously, as we look 
at making sure that accountability and oversight is conducted. 
There is no group of individuals that are truly more welcome 
than our inspectors general. I can say that having worked with 
all three of you, this is not your first rodeo, we welcome you 
back.
    But Mr. Roth, as you were just mentioning, it is the men 
and women who serve within your particular agencies that 
deserve a round of applause from the American people, and quite 
frankly, from Members of Congress. What I have come to 
understand far too often is that Members of Congress normally 
only show up when there is a problem, not when things are going 
well. So you have my commitment to all three of you as you 
invite me and other members of this committee to come in to do 
what I would say is a thank you tour, thank you for a job well 
done.
    So Mr. Horowitz, let me come to you, because obviously with 
all the attention that has been directed at the Department of 
Justice and ongoing investigations, are you finding, because of 
the IG Empowerment Act, your job is a bit easier to do with 
regards to cooperation within DOJ?
    Mr. Horowitz. I have heard from my entire staff, auditors, 
investigators, review teams, that their job has been made much 
easier by that. We are no longer getting the legal impediments, 
roadblocks thrown in our way. We occasionally have timeliness 
issues that come up that require elevating and they get fixed. 
But it's night and day from what you and other members of this 
committee heard repeatedly over the past 5 years about our 
ability to get our jobs done. That has improved markedly.
    Mr. Meadows. And, so, do I have all three of your 
commitment that if you start to see those impediments, even 
under a new administration, that you will report back to this 
committee expeditiously to let us know, so that we can 
hopefully alleviate any of those hurdles?
    Mr. Horowitz. Absolutely.
    Mr. Meadows. Mr. Chairman, if you could acknowledge that 
all the witnesses answered in the affirmative on that 
particular issue.
    Mr. Horowitz, let me come back to you, because obviously, 
there are some ongoing investigations as they relate to some of 
the issues at DOJ. In the past, we have run into not with DOJ, 
but we have run into other issues where the inspector general 
has said, Well, they didn't want Congress doing oversight and 
investigations simultaneously. Based on some of the ongoing 
investigations that you are involved with, do you see if 
Congress embarks on a strenuous oversight investigation, would 
that hamper your ability to do your job?
    Mr. Horowitz. No, we--I believe, we believe, and we've 
talked about this, that we would be able to move forward with 
our review, particularly, for example, our election--ongoing 
election review, that where looking forward to completing, in 
the not-too-distant future, and it would not impact us. And I 
would just point to this--our experience with the Fast and 
Furious review that we did. When I became IG in 2012, this 
committee had an ongoing and quite active review, and both 
moved forward in parallel fashions, and it did not impede us in 
any way.
    Mr. Meadows. So any requests for documents that this 
committee or members of the Judiciary Committee, since they 
have primary jurisdiction over DOJ, any requests for documents 
that they would make, either here in the House or in the 
Senate, would not be seen as being an impediment to your 
ongoing investigation at this particular point?
    Mr. Horowitz. That's right. Any documents that the 
Department has created itself, obviously we would want to have 
discussions before any records we had produced created in the 
course of this would be produced, but any preexisting and other 
records in the Department's custody we would have no objection 
to the Department providing response to congressional requests.
    Mr. Meadows. Well As you're aware, there had been some 
requests for documents that have actually been conveyed. So 
outside of private grand jury information that you've received, 
can you see any reason why any of the other documents that have 
been shared with you would not be shared with either the House 
or the Senate?
    Mr. Horowitz. I'm not aware of any such issues. Grand jury 
would be the obvious one.
    Mr. Meadows. Sure.
    Mr. Roth, let me come to you in my final 16 seconds. You 
have been hard-hitting on some of your analyses in a number of 
ways, and I've enjoyed reading your reports, and have read them 
many times over and over again. Do you believe, at this 
particular point, that you have the tools necessary to make 
sure that from a DHS standpoint, that we can get to the bottom 
of so many things that have plagued the agency? And do you have 
the necessary tools to be able to do that?
    Mr. Roth. We do. I was in a somewhat different position 
than Mr. Horowitz that the culture at DHS was to provide 
documents. We've never had access issues. We have some 
timeliness issues, but that is a matter of ensuring that those 
issues get escalated to the right level and then they get 
solved. But given the IG Act and the IG Empowerment Act, we are 
in a pretty good place.
    Mr. Meadows. I thank you, Mr. Chairman.
    I yield back.
    Chairman Gowdy. The gentleman from Maryland is recognized. 
The gentleman from North Carolina yields back.
    Mr. Cummings. Thank you very much.
    Very quickly, I want to clarify a comment I made earlier, 
Mr. Chairman. The subpoena that I requested earlier relates to 
three TSA officials who were either allegedly involved in 
retaliation, or involved in the decision to withhold documents 
regarding retaliation. I didn't want to paint a broad picture, 
but at least two of them were involved in retaliation. I just 
wanted to clear that up.
    Chairman Gowdy. Yes, sir. We're in one accord.
    Mr. Cummings. Thank you very much.
    Mr. Horowitz, in your testimony, you stated that there are 
currently 14 vacant IG positions, and that 12 of those are 
presidentially appointed, Senate-confirmed positions. The 
President has not nominated a candidate for five of these 
positions, including the Departments of the Interior, Energy, 
Defense, Housing and Urban development and the Federal Election 
Commission. Is that right?
    Mr. Horowitz. That's correct. Although the FEC position is 
an agency appointment, so that wouldn't be a Presidential one.
    Mr. Cummings. The Department of the Interior has been 
without a permanent IG for over 3,000 days. Mr. Horowitz, in 
your testimony, you stated and I quote, ``A sustainable absence 
of permanent leadership is not healthy for any office, 
particularly one entrusted with the important and challenging 
mission of the IG.'' Do you believe extended vacancies could 
affect the ability of the IG offices to make long-term 
commitments to projects?
    Mr. Horowitz. Absolutely. And, you know, acting IGs do 
great work. My position was vacant for about 15 months, but the 
IGs--acting IGs understand that they have got to be careful on 
any long-term issues while there's a vacancy. And not 
surprisingly, the access issues I faced, as you know, occurred 
during that period where there was no confirmed IG.
    Mr. Cummings. Are there any constraints on acting IGs being 
able to make decisions in the same way that a permanent IG 
would do?
    Mr. Horowitz. There aren't. And we at CIGIE strongly 
supported acting IGs to make sure they know we've got their 
back, if that comes up. But it's--it means--there's a 
significant difference between having been confirmed for a 
position and going through and knowing your staying versus 
filling a seat with the unknown of how long is that going to be 
and who's going to come next.
    Mr. Cummings. On April 12th, 2017, then-Oversight Committee 
chairman Jason Chaffetz and the ranking member, myself, wrote 
to President Trump asking him to nominate qualified, 
independent, individuals to fill these open spots. You said in 
your testimony that CIGIE works with the White House to 
recommend candidates with exemplary qualifications. Are you 
satisfied that the White House is considering the 
recommendations from CIGIE?
    Mr. Horowitz. We've had a very good working relationship 
with them. In reviewing candidates, they've made sure we 
reviewed and interviewed and passed along our views of every 
candidate. So far, all seven candidates that have been 
nominated have come through. Our office obviously can't speak 
to how the other vacancies will play out, but so far, it has 
been an open and productive dialogue.
    Mr. Cummings. On my way over here this morning to the 
committee, a reporter asked me a very interesting question, he 
asked, what do I worry about, or am I concerned about the folks 
being appointed to the IG positions. And I told him, No, I'm 
not worried at all, because the people that I--every IG that 
I've ever met have been very honorable people, and they are 
going to do what is right no matter what, and uphold the 
Constitution. And so, I don't have any--any concerns about 
that.
    Some vacancies, of course, are pending before the Senate. 
Robert Storch, who worked for you, Mr. Horowitz, was nominated 
almost 5 months ago, but his nomination still has not been 
approved by the Senate. Is that right?
    Mr. Horowitz. Yeah. And I'll make a pitch for Rob. He is 
still my deputy, National Security Agency nominee and my 
whistleblower ombudsman. So to your point earlier, this is 
someone who would bring to the intelligence community real 
experience in whistleblowing issues, which, as we know, is 
critically important there. He's gone through three committees, 
three committees have approved that nomination because of the 
position, and he is awaiting confirmation on the floor.
    Mr. Cummings. Last question, tell us how significant the 
whistleblower ombudsman is, and what--and exactly what do they 
do?
    Mr. Horowitz. I share your passion, Congressman, about 
whistleblowers and the importance of supporting them. We've 
dealt with them, and if anybody has any question about how 
important whistleblowers are, go to oversight.gov, type in 
whistleblowers in the search term, you'll get all the reports 
that reference whistleblowers that have resulted in important 
reports that we've issued. There are hundreds of them. And 
that's because they know the key information that we need. And 
having whistleblower ombudsmen is a way to further encourage 
people to come forward, have a comfort level that they are 
going to talk with somebody who understands, and cares about, 
and knows about the challenges they are going to face, and can 
give them information about the process, so it's not 
mysterious, it's not an unknown.
    And all of us in the IG community take seriously any 
retaliation against whistleblowers. So our ombudsman are 
involved in training within the community. We've created in 
CIGIE our first-ever ombudsman group that's helping agencies 
with training, my own agency, DOJ; we have worked with the 
Department as well. So this is a very important issue for us. 
And we support, by the way, legislation that this committee has 
put forward, and you have been so instrumental on, it would 
make those positions permanent.
    Mr. Cummings. Thank you very much.
    Chairman Gowdy. The gentleman from Maryland yields back. 
The gentleman from North Carolina is recognized.
    Mr. Walker. Thank you, Mr. Chairman. Thank you all on the 
panel for being here today as always.
    Mr. Horowitz, according to your website, your office is 
conducting an ongoing review of the Drug Enforcement 
Administration's effort to prevent opioids from being 
distributed to unauthorized users. Can you give me an update of 
the status of the review and when will that review be complete?
    Mr. Horowitz. Well, we initiated that just a couple of 
months ago, and, so, we're in the frankly relatively early 
stages; we're in the middle of getting documents, reviewing 
documents and conducting interviews. I can probably give you a 
better idea early in the year on what our timeline looks like, 
but our reviews roughly take about year or so.
    Mr. Walker. Okay. Any initial or early delays that you are 
concerned about at this point?
    Mr. Horowitz. No. The relationship with DEA has changed 
dramatically from what it was, and this committee understands, 
perhaps, better than anybody.
    Mr. Walker. We are thrilled to continue hear about, to 
continue to expound on that even more in the days ahead.
    Mr. Roth, or General Roth, the DHS OIG released a 
management alert for FEMA on September 29, 2017, relating to 
the housing programs FEMA is implementing in Texas following 
Hurricane Harvey. The OIG made a point to release this 
management alert quickly so FEMA would still have time to heed 
the OIG's recommendation. Is that correct?
    Mr. Roth. That's correct.
    Mr. Walker. Has FEMA responded to that management alert or 
provided feedback in any way?
    Mr. Roth. They have responded, and we are working with 
them. What we want to try to do is have a relationship where we 
can give--bring attention to these issues and work with them to 
try to get a solution.
    What we were worried about particularly in that situation 
was the fact that they contracted with a local State entity to 
provide housing assistance, but the contract that they used 
didn't have the kind of measures that a typical Federal 
contract would have, you know, what is the responsibility of 
FEMA? What is the responsibility to the State? How do you 
measure performance? What happens if performance isn't 
conducted, those kinds of things. So we were working with them 
to try to convince them, or to have them understand why it is 
that these things are important.
    Mr. Walker. You are familiar with the step pilot program 
that FEMA first used after Hurricane Sandy, I would imagine. 
FEMA continues to use variations of this pilot program. They 
used it again after the flooding in Baton Rouge last year, now 
they are using it again after the hurricanes this year, but the 
problem, I guess, is they still haven't implemented your 
recommendations. Can you speculate, or tell me why it is 
important? First of all, speculating why they have it, and tell 
me why it is important that FEMA does include those 
recommendations?
    Mr. Roth. Yeah. This is one of the constant criticisms that 
we've had over time with FEMA, is the fact that every disaster 
seems to bring challenges that they had faced before, and yet 
had not put in procedures in place. FEMA is a very highly 
decentralized organization that's really developed around the 
regional structure. So the procedure that was used, for 
example, in Miami would be different than the procedure that 
was used in Houston, as opposed to having sort of standardized 
national criteria and policies and procedures. And the step 
program really is the poster child for that.
    We first notified them that this was a high-risk pilot 
program back in 2012. They didn't do anything. We did another 
audit report in early 2017. Again, there were issues. And then, 
finally, we have this management alert that says, you need to 
develop policies and procedures so you're not making this up 
every single time.
    Mr. Walker. So we're now, I guess, past 5 years from your 
initial recommendations to FEMA. Is that correct?
    Mr. Roth. That's correct.
    Mr. Walker. Thank you.
    With that, I yield back to our chairman.
    Chairman Gowdy. The gentleman from North Carolina yields 
back. The gentlelady from New York is recognized.
    Mrs. Maloney. Excuse me, I will be right back.
    Chairman Gowdy. Yes, Ma'am. The gentlelady from the 
District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman, and I appreciate not 
only this hearing, Mr. Chairman, but all of our witnesses.
    Mr. Roth, I have questions for you because of my concern 
about Puerto Rico and the Virgin Islands. On a scale of 1 to 
10, let us look at Puerto Rico first, because the distress 
continues there. What would you give the response to the 
hurricane in Puerto Rico on a scale of 1 to 10?
    Mr. Roth. We are looking at that very issue, as is the GAO, 
to try to assess exactly how the situation has been. We haven't 
come to any conclusions that I'm prepared to talk about at this 
point. But we have people right now on the ground asking that 
very question.
    Ms. Norton. Well, because of my confidence in inspectors 
general, I am sure you were unaffected by the fact that the 
President has already given the Federal response a grade of 10 
out of 10, very concerned for the future of responses, not only 
in places like Puerto Rico surrounded by water, but throughout 
the United States, that there could be a $300 million contract 
given to a company that had two employees.
    Mr. Roth, I have to ask you, is there anything that could 
flag that instantly so that we don't have what we have now? 
What we have now is a contract that's finally been withdrawn. 
It wasn't withdrawn because of any action of this committee or 
the Congress of the United States, it was a public outcry to 
what continues in Puerto Rico. So it was--it was, indeed, 
withdrawn.
    Is there--I mean, once--once somebody gets a contract, I 
won't even--because I think, in a real sense, I'd like to put 
aside the possible--or the conjecture about political contracts 
and the rest of it. Isn't there anything in the government or 
your office to flag somebody getting a contract who has two 
employees, or do we have to wait until the public demands that 
that contract be withdrawn?
    Mr. Roth. Certainly when FEMA is involved, we can tell you 
what the process is. Now my understanding with the Puerto 
Rico----
    Ms. Norton. Well, sure, FEMA was involved.
    Mr. Roth. Well, that's still unclear. In fact, we're 
looking at that specific issue, the circumstances surrounding 
the letting of that contract, and whether the Federal 
Government was involved in that. But I will tell you what we 
are doing in all three disaster areas. We are part of the joint 
field office. So we have auditors and criminal investigators 
who are part of the team there. And one of things that they 
do----
    Ms. Norton. Are they doing that--are the auditors there 
now?
    Mr. Roth. Yes.
    Ms. Norton. Because I note that I have a New York Times 
article here that Governor Rossello has asked for a Federal 
investigation of the contract--I'm now quoting from The New 
York Times--and for the power authority--the power and 
authority to appoint a trustee to review contract bidding. Is 
that the direction in which we're going now with respect to 
Puerto Rico?
    Mr. Roth. So what we're doing in Puerto Rico is, again, we 
have an audit staff that's down there. In fact, my deputy is 
down there as we speak.
    Ms. Norton. Well, that's very reassuring. I have one more 
question that I must ask you before my time runs out. There was 
an 8-day delay in appointing a three-star general to go down 
there. I don't know when there's been a disaster as bad as 
Puerto Rico. Now, we understand that that Attorney General--
that general lieutenant, General Jeffrey Buchanan, is leaving 
Puerto Rico, along with all of his military equipment. And they 
don't have power in Puerto Rico yet. How is that justified, Mr. 
Roth, to be pulling the military who was necessary to get 
anything going in the first place? And are you looking into the 
withdrawal of the military after the delay in getting military 
there and the continuing crisis in Puerto Rico with no 
electricity, and people still screaming and yelling that they 
are not being treated fairly?
    Mr. Roth. We are looking at FEMA's response and DHS' 
response----
    Ms. Norton. Are you looking at the withdrawal of the 
military?
    Mr. Roth. To the extent that DHS was involved in that 
decision, we will--we will certainly consider it as part of our 
overall review. I would also note that GAO has announced that 
they are doing a fairly fulsome review of those very same 
issues.
    Ms. Norton. Thank you.
    Mr. Chairman, I just want to say that I believe there ought 
to be a subpoena because the White House is withholding 
information relating to the administration's response to 
hurricanes in Puerto Rico and Virgin Islands where, there is 
still immense distress. If we can't get it any other way, I 
hope we will consider a subpoena.
    Chairman Gowdy. The gentlelady from the District of 
Columbia yields back. The gentleman from Alabama is recognized.
    Mr. Palmer. Thank you, Mr. Chairman.
    Mr. Roth, we sent a letter--we requested--to your office 
requesting that you produce complete case files for your office 
report, FEMA's initial response to the 2016 catastrophic 
flooding in Louisiana. And we ask that you provide those 
materials no later than 5:00 p.m. On July 31. Those materials 
were not produced. We extended that, yet I gave you a little 
bit longer. And you still--your office still hasn't provided 
those. Can you tell me why you haven't provided those 
documents?
    Mr. Roth. Sure. The reason we haven't provided them is that 
the audit is not complete. We issued a report with regard to 
the flooding in northern Louisiana. And it was pointed out that 
there was some factual discrepancies within that report. We 
took those very seriously. We took down that report because we 
had concerns about the accuracy of it.
    I instituted an entirely new audit team that was completely 
separate, had a different chain of command from the audit team 
that had done the original report. They are still working 
through those issues right now, so the audit is not complete. 
And as a result, we're not able to produce those documents.
    Mr. Palmer. When do you anticipate completing the audit and 
producing the documents? Can----
    Mr. Roth. I will have to give you an update on that. I 
don't have that information in front of me. It should be a 
matter of months, because we want to do this thoroughly. We 
understand the concerns that were raised with regard to that 
report.
    Mr. Palmer. How much material are you having to go through? 
I mean----
    Mr. Roth. I'm sorry?
    Mr. Palmer. You're talking about a matter of months, I 
mean, are we taking 10,000 pages, a million--why can't we be a 
little bit more timely with it, a little bit more specific 
about how long it will take to produce those documents?
    Mr. Roth. As I said, we're just going to have to take a 
look. I mean, it's simply I have to take a look and see where 
we are with regard to the process. We take it very seriously 
when people raise issues with regard to the accuracy of our 
reports, that's our bread and butter. We want to make sure it 
is completely accurate before we release a report, or decline 
to release a report if we can't salvage it.
    Mr. Palmer. I'm not satisfied with a matter of months. I 
want to know why you can't produce an audit. Do you not have 
enough people doing the audit? What's the hold-up? I mean----
    Mr. Roth. As I said----
    Mr. Palmer. You've had more than 4 months, so we would--I 
don't think it's acceptable to say that, you know, it's open-
ended response that it will be a matter of months. When can we 
expect to get a report?
    Mr. Roth. Well, I can't give you a definitive answer here. 
I'll go back to my folks and see if we can accelerate the time 
schedule.
    Mr. Palmer. Okay. How long with it take for a definitive 
answer?
    Mr. Roth. As to a timetable? I imagine we can do that by 
next week.
    Mr. Palmer. Okay. Can we get that answer by Friday of next 
week--well, no a minute, that's Thanksgiving.
    Mr. Chairman, what would be acceptable time? The Monday 
after Thanksgiving?
    Chairman Gowdy. If that is within the realm of possible for 
the IG, and acceptable to my friend from Alabama, we will say 
the Monday after Thanksgiving.
    Mr. Palmer. Is that good?
    Mr. Roth. We'll report back then.
    Mr. Palmer. Thank you, sir. Mr. Horowitz, the Council of 
the Inspectors General on Integrity and Efficiency has plans 
for the expansion of the oversight government.gov--oversight of 
oversight.gov and other related efforts. How have the IGs and 
agencies responded to that initial effort?
    Mr. Horowitz. Well, certainly, the IG community has been 
very supportive and we've gotten that up and running. And 
oversight.gov was put forward and put together with no 
additional funding. We would like to and have talked with 
Members of Congress and OMB about creating an open 
recommendations website. I think that is something members 
across the board have asked us about, OMB's interested in, they 
would be very valuable. Many of those open recommendations 
carry billions of dollars in cost savings. We'd like to get a 
whistleblower-friendly reporting web page up. Some of that 
would require some additional funding. We've estimated in the 
$1 million to $2 million range to develop the pages and staff 
them, and we are looking forward to talk to Members of Congress 
and OMB about that.
    Mr. Palmer. Well, quickly have you looked at creating a 
recommendations database similar to what the GAO uses?
    Mr. Horowitz. Right.
    Mr. Palmer. I worked on a number of issues where the GAO 
and General Dodaro, and it's been extremely helpful. Are you 
guys doing the same thing?
    Mr. Horowitz. Absolutely. In fact, that is the impetus for 
a lot of this. In fact, that was the first impetus for 
oversight.gov was looking at GAO's web page, because you can to 
GAO's web page and you can go to oversight.gov and see all of 
their work across the entire Federal Government. You couldn't 
do that until October 1 with the IGs.
    So the first step was oversight.gov; we talked with Mr. 
Dodaro and others at GAO about how we can do that. And I don't 
know if this is possible, because I'm not the right tech person 
to figure this out, but the ideal scenario would be, we can 
develop an open recommendations page that talks with their open 
recommendations page so that Members of Congress, OMB, the 
public, can see across both of our organizations, the open 
recommendations and how long they've been open.
    Mr. Palmer. Excellent.
    Thank you, Mr. Chairman. I yield back.
    Chairman Gowdy. The gentleman from Alabama yields back. The 
gentlelady from New York is recognized.
    Mrs. Maloney. Thank you, Mr. Chairman and Mr. Ranking 
Member and all the panelists.
    I'd like to ask Mr. Roth, your office recently issued a 
classified report on the Federal Air Marshals Service, or FAMS. 
The unclassified summary of your classified report includes the 
title of the report which is, and I quote, ``FAMS, contribution 
to aviation transportation security is questionable.'' Now, I 
recognize that you can't speak about classified material. But 
to the extent that you can talk about the unclassified part of 
this report, can you explain why the contribution of the 
Federal Air Marshal Service to aviation transportation is, in 
your opinion, questionable?
    Mr. Roth. I can't obviously talk about the specifics of the 
report.
    Mrs. Maloney. Yeah.
    Mr. Roth. But what I can talk about is TSA's attitude 
assessing risk, in that they will assess risk in certain areas 
of transportation, whether it is ground transportation, or air 
transportation, or specific aspects within the transportation.
    The difficulty is they don't budget the same way that they 
assess risk. So things that are low risk, for example, still 
notwithstanding the change in, for example, the risk 
environment, or the intelligence that they receive with regard 
to terrorist activity, their budget does not change in 
accordance with that, so money gets wasted basically fighting 
the last war.
    Mrs. Maloney. Well, building on what you said, the CRS 
reported that we spent over $800 million on the Federal Air 
Marshal Services in years 2015, 2016, and 2017. And that's an 
incredible amount of money to be spending on a service that is, 
quote, ``questionable.''
    And the Government Accountability Office stated to the 
unclassified version of a report, and I quote, ``For FAMS, TSA 
officials explain that it's very difficult to measure the 
effectiveness of Federal air marshals and the program, and that 
there's absolutely no way to collect data,'' end quote.
    Do you agree with that? How in the world can you not 
measure when you're spending $800 million on it, is the result?
    Mr. Roth. I don't agree with that, and TSA will tell you 
they have specific classified documents that talk about the 
risk of specific events occurring. So they measure it, and can 
measure it. Our difficulty is that their management of the risk 
doesn't match their spending.
    Mrs. Maloney. So what do we do about it?
    Mr. Roth. Well, I'm a big fan of congressional oversight. 
One of the things that we're doing is that report is now 
classified at the secret level. We are going to redact the 
secret portions to make it a little more accessible. It will be 
at the SSI level, so more Members of Congress, for example, can 
see it and see whether or not this is an issue that is useful 
for oversight.
    Mrs. Maloney. Well, since you can't discuss it because it's 
classified, could you meet with the members in a bipartisan way 
that are interested, and discuss the classified sections with 
us?
    Mr. Roth. Absolutely. We welcome the opportunity.
    Mrs. Maloney. Okay. Maybe we can do that.
    I'd also like to follow up on one of the posts from TSA. 
Their website said they had 20 layers of U.S. aviation 
security. But, again, you have reported that the checkpoint 
screening layer is deficient. Can you, to the extent that you 
can discuss the unclassified areas, could you share information 
on the screening deficiencies?
    Mr. Roth. Well, the only thing I can really say is that, 
again, we do these tests about every 2 years. The last time we 
did these tests was in 2015. I characterized those tests back 
then as disappointing and disturbing. I would characterize the 
results this time the similar way.
    We found deficiencies in the equipment, we found 
deficiencies in the personnel, and we found deficiencies in the 
process by which they interacted with the equipment.
    Mrs. Maloney. Well, I can say for a system that is critical 
to protecting American lives, this is unacceptable, and we need 
to be briefed on the classified section of it.
    And the warnings that are being raised about the extent of 
the problem, I find absolutely alarming, quite frankly, and we 
should begin by enforcing the existing subpoena that the TSA 
has ignored, completely ignored. And we should require 
depositions with TSA employees that have refused, absolutely 
refused to answer questions voluntarily that this committee has 
put forward.
    So I personally look forward to your briefing, and thank 
you very much.
    Mr. Roth. Yes.
    Mr. Gowdy. The gentlelady from New York yields back.
    The gentleman from Kentucky is recognized.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Roth, I have a few questions relating to the ongoing 
disaster-related investigations. First of all, this committee 
staff recently met with your staff in Texas regarding the 
response and recovery to Hurricane Harvey. In Texas, the Office 
of Inspector General has been investigating disaster-related 
fraud claims.
    The impersonation of FEMA officials, bribery, extortion, 
and even human smuggling, are these typical crimes you see 
following a natural disaster?
    Mr. Roth. Yes, we do. One of the things that we try to do 
in the very early stages of a natural disaster, is that these 
folks have been victimized once by the natural disaster; we 
want to make sure that we try to prevent a second victimization 
by sort of the criminal elements who would come in, either with 
various sort of scams or identity theft, those kinds of things.
    So we do see a lot of that typically in every natural 
disaster, So that's why we want to jump on it as early as we 
can.
    Mr. Comer. What kinds of crimes and misconduct are you 
investigating in Puerto Rico and the Virgin Islands? Are there 
any particular trends you have assessed at this point?
    Mr. Roth. It's going to be roughly the same kind of things 
that your staff saw in Houston. So, again, impersonation of 
FEMA officials, for example, identity theft, various kinds of 
scams. Charity scams, for example, are always a big one that we 
always have to take a hard look at. So it's really the panoply 
of criminal conduct that we almost see every--every disaster.
    Mr. Comer. How are you allocating the OIG resources to 
ensure that disaster relief funds are not misdirected to bad 
actors who try to take advantage of Federal programs to assist 
disaster survivors?
    Mr. Roth. Yeah. We have a full court press on this. I mean, 
typically, we spend roughly between $25- and $30 million a year 
on disaster relief. That's going to go up, obviously, as a 
result of these disasters.
    We're doing a full court press, particularly early on in 
the disaster, to make sure that we have a public presence, that 
people know we're there. We're doing really on-the-spot 
auditing work to sort of take a look at some of the contracts 
that have been let to do sort of the basic name checks and 
criminal checks of the individuals who are getting contracts, 
to make sure that these aren't folks that are, for example, 
prohibited from Federal work or, you know, related in some way 
to a public official.
    You know, those are the kinds of things that we do early 
on. And then, obviously, once the public assistance money comes 
in, we'll be doing early warning audits to take a look at 
whether or not the entity that's involved has the capacity to 
use this money in an effective way.
    So we have a whole series of things that we'll do over the 
course of time. I mean, we're still finishing up Sandy work, 
for example. So it will take some time.
    Mr. Comer. Right. I understand the complexities and the 
difficulty that an agency like FEMA would have coming into a 
situation where you've had a natural disaster, but in the past, 
FEMA has had a lot of bad press, and a lot of bad stories. 
Congress has continued to question FEMA, and hopefully trying 
to determine if FEMA has learned from past mistakes.
    Do you feel like FEMA is on the right track as far as being 
efficient and trying to be responsive to the people in need, or 
what's your assessment right now of the direction we're headed 
with FEMA?
    Mr. Roth. Yeah. When you look at all of our audits reports, 
and there are hundreds of them, the picture that gets painted 
is that this is still not a mature agency. They don't have the 
kinds of internal controls that sort of a mature sort of 
organization should have in the spending of money.
    Their culture is one of disaster relief. They're very 
victim centric, and I applaud the fact that they want to go in 
and they want to do whatever it takes. But what I worry about 
is that they don't have processes in place that will help 
during stressful times, like a natural disaster.
    Mr. Comer. And that's what makes it difficult for members 
like myself who are concerned about the debt. I believe in a 
limited government. It's government's responsibility to help 
people that can't help themselves like in a disaster situation.
    But my--speaking for myself--confidence level in FEMA isn't 
where it needs to be, and that's unfortunate, because I know we 
have a lot of people in need, and I believe that this agency 
can and should be the point of contact between the government 
and the people.
    But I'm hopeful that FEMA will try to improve and restore 
confidence in at least members like myself that have read some 
of these audits and have serious concerns about the direction 
that agency is headed with it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Gowdy. The gentleman from Kentucky yields back.
    The gentleman from Massachusetts is recognized.
    Mr. Lynch. Thank you, Mr. Chairman, and the ranking member.
    I want to thank our witnesses. Thank you for the job that 
you do every day. Not only is it very important work, but it is 
becoming rarer as, at least on this committee, we have, I 
think, abdicated our responsibility to conduct meaningful 
oversight. So your work becomes even more important.
    Mr. Roth, it would be great to hear, maybe offline, your 
most recent review of TSA and what's going on. They've done 
incredible work.
    Ms. Buller, I had a chance to visit with the Peace Corps 
volunteers in Tanzania. We've got some young, young American 
kids over there that are out there hundreds of miles from any 
major town, and basically trying to instruct the folks there, 
the tribal members on avoiding HIV infection, things like that.
    But, you know, I know we instantly recognized the heroism 
and the courage of our military personnel, but I don't think we 
give enough respect and acknowledgment to some of these kids in 
the Peace Corps. Carrie Radelet, who is running the program 
over there, at least was recently, and they're doing incredible 
work over there, really deserve a lot of support. So I really 
appreciate the work you're doing.
    Mr. Horowitz, I want to talk to you about--you did a 
wonderful, in-depth, thorough investigation of the use of 
confidential informants by the ATF, the FBI, and DEA. And we 
found--you found--that there was almost no oversight being done 
in terms of how we select confidential informants.
    In my district, we had a couple of instances where 
confidential informants were actually committing murders while 
they were on the payroll of the FBI. And we've got a lot of 
evidence out there that bad things are happening.
    So ATF has about 1,800 active informants. DEA has about 
1,800 informants. There's a--I think there's a blind spot here. 
The DEA has paid approximately $237 million out of--out to 
about 9,000 of their informants. They paid $25 million to eight 
people over the last 5 years.
    There is very little evidence that we can see about how 
these people were chosen, where the tax money is going to pay 
these informants, what value they are to law enforcement 
efforts. It's a black hole.
    So, you know, you've done some great reports. I know 
there's an addendum here, this year addendum to last year's 
review. Has anything improved here in terms of their 
accountability, in terms of who they choose as an informant, 
whether they report the crimes?
    So there's a lot of crimes being committed by confidential 
informants with the protection of government under the pay--on 
the payroll of the government, and we don't get any reports at 
all. Congress gets nothing. We don't want to know anything. 
That's just out there. They do their thing. It's 
unconscionable, but that's the situation that exists.
    Has anything gotten better?
    Mr. Horowitz. First of all, I agree with you on your 
assessment. And as you know, and we've talked about, our office 
worked on the Bulger matter that you referred to, which was the 
FBI informant, both on his prosecution and the agent's 
prosecution.
    Mr. Lynch. Right.
    Mr. Horowitz. These are very serious issues. These are 
people who are usually involved in illegal activity before they 
become informants--not always, but often--who are then being 
authorized to conduct additional illegal actions with the stamp 
of approval of the Federal Government, and the Justice 
Department in this instance.
    We found widespread problems, as you noted. Part of the 
report, the addendum is the classified piece of it, so I can't 
go into some of those details but----
    Mr. Lynch. Let me just stop you right there. We have to do 
this. We have to do our work. You know, Mr. Horowitz, all three 
of you, I would recommend we do a separate hearing with each 
one of you, public hearing, about what we can talk about, and 
then we do three confidential--you know, three basically 
restricted forums, where it's in camera, and that we get the 
rest of the information for you, because this is just 
unconscionable that this would be allowed to continue. It's 
putting the national security and the privacy protections of 
the general public at great risk.
    Mr. Horowitz. I agree, and I'd be more than happy to come 
and speak with you and other members about the nonpublic 
information but also, obviously, keep you and the committee 
informed about what we're seeing as we do follow-up work.
    Obviously, we will continue to watch how this is going, 
because we agree, these are very significant issues that we've 
identified.
    Mr. Lynch. All right. Thank you, Mr. Chairman. I yield 
back.
    Mr. Gowdy. The gentleman from Massachusetts yields back.
    The gentleman from Georgia is recognized.
    Mr. Blum. Thank you, Mr. Chairman.
    Mr. Horowitz, I want to come to you. I would like to change 
gears a little bit, go back to the Puerto Rico discussion. Last 
month, the DOJ recommended that the oversight board that 
Congress established for Puerto Rico, that it take steps to 
ensure that the Federal disaster relief funds are protected 
from creditors.
    Has--has your office, have you all reviewed those 
recommendations?
    Mr. Horowitz. We have not yet, and I'd be happy to follow 
up and check into that and get back to you.
    Mr. Blum. Is there any reason that you haven't?
    Mr. Horowitz. Frankly, with the variety of work and--on our 
plate, we are, you know, obviously interested in looking at it 
and talking with you further about it.
    Mr. Blum. Please do, and I would like your input on that. 
Yesterday we had, in Natural Resources, a hearing that involved 
the government of Puerto Rico, and I was able to question. I 
have some very serious concerns with this whole thing.
    October 23, he established, by executive order, the CRRO, 
the Central Recovery and Reconstruction Office for Puerto Rico. 
And according to that executive order and his own testimony, 
the purpose of the CRRO would be as a central collector of all 
the various streams of financial support that the island is 
receiving.
    All right. That sounds pretty good, but when you start 
coming down to the enormous amounts of money that are coming 
in--I mean, just yesterday, he requested between $90- and $100 
billion yet to come. And so my question is, if we here in 
Congress have authorized the oversight board to oversee the 
economic recovery of Puerto Rico, where does this leave the 
CRRO and what kind of conflict is involved in it?
    Mr. Horowitz. Yeah. And I'm certainly happy to look into 
that. We did an audit report last year on the Department's 
money going into Puerto Rico and found a wide variety of 
concerns and problems about that, so this is a very important 
issue. There's a lot of Federal Government money going, not 
just with the disaster relief efforts, but day in and day out.
    Mr. Blum. Right, day in and day out.
    And let me ask a couple more questions with this. And, Mr. 
Roth, I'm going to come to you on this too, because I want to 
get my head wrapped around as much of this as I can.
    Do you know whether or not the CRRO will be accountable to 
the oversight board?
    Mr. Horowitz. I don't know the answer to that as I sit 
here, but I'm certainly happy to look into it.
    Mr. Roth. Yeah. I don't know either. I'm sorry.
    Mr. Blum. How can we be looking at all this money flowing 
in there with a new, established office, the CRRO, and we don't 
have any idea where all this--I mean, streams of--gobs of money 
going in this. And there seems to me that there's no 
accountability in this, and they're asking for more and more 
all along.
    Will the Office of the Inspector General be investigating 
the CRRO?
    Mr. Horowitz. Well, I'm going to follow up and look at the 
issues. I will just say, in terms of the disaster recovery 
moneys, I just want to mention that CIGIE, the Council of IG, 
has a disaster assistance working group to make sure we're all 
coordinated as IGs.
    Actually, IG Roth leads that effort. We--he's had meetings 
already about it. We've coordinated and we're talking to GAO. 
They have participated in these discussions. We want to have a 
comprehensive review on the disaster recovery effort.
    And I'll just add, you're going to see in the next several 
weeks, on Oversight.Gov, a new link and a web page so the 
public can watch where that money has been going in our 
oversight efforts on the disaster recovery efforts.
    Mr. Blum. That would be very helpful. We're just talking 
tens and tens of billions of dollars involved, and more 
probably on the way. And there appears to me to be absolutely 
no accountability. I'd like to know if there's going to be any 
auditing. I want to know if the oversight board is going to 
have any real oversight or involvement in this. They may be a 
conduit for the money to go into and be disbursed, but who's 
overseeing that----
    Mr. Horowitz. Well, and that's the issue that I think we 
have to follow up and see where the money is coming from and 
where it's going to so that we understand who's conducting 
oversight.
    Just to be clear, with all of the oversight work we all do, 
the first line of defense has got to be the agency and the 
entity. We have limited staff. I have 450 people--470 people 
now in my OIG to oversee 110,000 people.
    I have $100 million budget, $95 million budget to oversee a 
$28 billion budget. So--and John's numbers, actually, IG Roth's 
numbers are probably even more skewed the other way. So, you 
know, we've got limited resources. We've got to make sure our 
agencies are doing the work they need to do as well.
    Mr. Blum. We do. And we've got to make sure there's 
oversight of all of this. I was stunned with his request of 90- 
to $100 billion. And I did a little research. That's more than 
what NASA is requesting for the Mars One project that goes from 
the 2011 to the mid-2030s, where we're actually going to be 
putting a permanent human colony on Mars, for crying out loud.
    And Puerto Rico is wanting more money. It's like, this is 
an unbelievable amount of money, and we have got to make sure 
that the accountability is there. And I thank you for your 
assistance in that.
    I yield back.
    Chairman Gowdy. The gentleman from Georgia yields back.
    The gentlelady from Illinois is recognized.
    Ms. Kelly. Thank you, Mr. Chair.
    I wanted to talk a little bit about the hiring freeze. On 
January 23, 2017, President Trump imposed a government-wide 
hiring freeze for civilian employees. In April, the Office of 
Management and Budget replaced the President's hiring freeze 
with a directive to all Federal agencies, quote: ``Begin taking 
immediate actions to achieve near-term workforce reductions and 
cost savings.''
    The Democratic committee staff surveyed inspectors general 
at two dozen Federal agencies to determine the potential effect 
of these actions on their ability to conduct oversight of 
Federal programs and operations.
    Mr. Horowitz, the response we received from your office in 
March stated, and I quote, ``As we continue to assess the 
impact of the hiring freeze and prospect of a reduced budget, 
DOJ, OIG is concerned about the potential impact that a period 
of sharply limited resources could have on our ability to 
continue to perform the kind and range of audits, evaluations, 
and investigations that are expected of us.''
    I understand that your office was able to hire some staff 
this year. How could a hiring freeze impact an IG office in its 
ability to conduct oversight?
    Mr. Horowitz. Obviously, a hiring freeze would have an 
impact, or could have an impact on IGs because of the 
limitations on adding staff. We are--as IG Roth mentioned 
earlier, all of our work is driven by our staff and our ability 
to do their work.
    I'll just add this caveat: We were largely exempted from 
the hiring freeze as IGs because of our law enforcement and 
other important responsibilities. What does worry myself and 
other IGs is flat budgets for us is, in effect, a hiring cut, 
because costs increase, rent increases, healthcare increases, 
other benefits increase, meaning we have to reduce staff if 
we're held flat.
    And that does have an impact on us. We're not like the FBI, 
DEA, other parts of the Justice Department that can look to 
nonpersonnel costs to save money. We're all about two things as 
a general matter: People and rent. And we're not going to close 
our buildings because we still have people working in them. So 
it's all going to have to come out of personnel.
    Ms. Kelly. So freezes and flat budgets both impact the 
mission of your organizations?
    Mr. Horowitz. Right. So I would just--that is actually far 
more important to me in my office than perhaps the hiring 
freeze was because of the exemption we were given.
    Ms. Kelly. Okay. Mr. Roth, the survey response that our 
staff received from your office stated, and I quote, ``That 
said, to adhere to the intent of the hiring freeze, there is 
still many support positions that are on hold during the freeze 
that we believe, based on past experience, will over time 
reduce the Department's overall capacity and capability. 
However, the long-term impact remains to be determined.''
    Has your office taken any actions to implement the OMB 
directive?
    Mr. Roth. Yes. So what we have done--and, again, the freeze 
was lifted in April, as you note, and, you know, since then we 
are hiring up to our budget levels. So there was a pause while 
we tried to understand what it was that was going on, but we 
have now been able to continue to hire basically to our full-
time equivalent level.
    Again, to reiterate what I said in my testimony as well as 
what Mr. Horowitz testified to, what we worry about is future 
budgets. The President's budget for me for fiscal 2018 has a 10 
percent cut in our budget, and that would be 10 percent below 
this year's level at the same time that the rest of DHS is 
increasing. So as their risks increase, our opportunity to take 
a look at those risks and try to mitigate those risks decline. 
So that's what we worry about more than a freeze.
    Ms. Kelly. Okay. Many IG offices responded to our survey 
noting serious concern about the impact of the administration's 
hiring freeze and proposed staffing reductions. The Department 
of State IG reported that it faces, and I quote, ``staffing 
challenges in our oversight of operation, inherent resolve in 
Operation Freedom Centennial, the U.S. efforts to defeat the 
Islamic state of Iraq and the Levant and the Taliban 
respectively.''
    The EPA IG warned that staffing reductions could, and I 
quote, ``hinder significantly our ability to exchange 
protective intelligence information with the FBI, Secret 
Service, and Marshal Service, which would delay the 
apprehension of criminals.''
    Given how impactful IG offices can be in preventing waste, 
fraud, and abuse, it makes very little sense to impose a 
freeze, staffing reductions, or budget cuts on IGs. The 
Government Accountability Office found that a previous hiring 
freeze, and I quote, ``caused decreased oversight of Federal 
programs by making it more difficult for the inspector general 
offices to do their jobs, something we want you to have the 
capability to do.
    And I yield back.
    Chairman Gowdy. The gentlelady from Illinois yields back.
    The gentleman from Oklahoma is recognized.
    Mr. Russell. Thank you, Mr. Chairman.
    And thanks to all three of you for the work that you do. 
Our government would be far less efficient without the 
fantastic work that you do.
    Ms. Buller, I would like to start with you, but actually 
ask all three of you, because you had expressed concern, along 
with Mr. Horowitz, about desire for an independent testimonial 
subpoena authority. And I think this is important that--you 
know, that we explore that a little more.
    Would you speak to that, and actually all three of you, of 
why this subpoena authority you feel is necessary?
    Ms. Buller. Often during the time that we're conducting an 
audit or an investigation, people who have knowledge of events 
that happened during the course of the event--of the activities 
that resulted in the auditor investigation leave for whatever 
reason, either they retire conveniently, sometimes, or they 
just leave.
    And we cannot, once they leave the government, make them 
talk to us. When they're employees of the government, we do 
have the ability to access them. Once they're gone, we don't.
    And in the Peace Corps, it's exacerbated because we have a 
5-year term limit. So there is people coming and going all the 
time, and most of the time, they don't even stay for the 5 
years. So once they're gone, and we're in the middle of an 
audit, we can't talk to them about it or--if they don't want to 
talk to us. That's the importance of a testimonial subpoena.
    Mr. Russell. And I appreciate the insight on the 5-year 
term limit, which makes it even more difficult.
    Mr. Horowitz, and then Mr. Roth.
    Mr. Horowitz. I'll speak to whistleblower matters. 
Congress, for good reason, gave IGs authority to look at 
whistleblower retaliation at contractors and grant recipients 
when management there tried to shut down employees from 
reporting waste, fraud, and abuse to us.
    Well, the challenge is, unlike employees in the Federal 
Government, which when they're employed, they have to speak to 
us, the same isn't true for current or former employees of 
contractors or grant recipients.
    And so, we have that authority now to investigate, but I've 
had cases where the people who were the alleged retaliators, 
either left their jobs, in which case they clearly were 
unreachable to us because they weren't going to voluntarily 
speak to us, or even if they were still at the job, it would 
require management of that organization to tell the employee to 
speak to us because there's no other way to do that.
    And so, it's very important the whistleblower space, as 
well as frankly the misconduct space. We see, not infrequently, 
Department employees conveniently retiring on the eve of being 
questioned about the misconduct we're----
    Mr. Russell. That seems to be a bad habit.
    Mr. Roth.
    Mr. Roth. Yeah. And I would add, for example, in the FEMA 
context, you know, most of the money goes to States as grantees 
and then the State and locals as municipalities and then to 
private contractors. So just to trace the money and do a basic 
fraud investigation, never mind the whistleblower retaliation, 
requires the cooperation of all those folks.
    Now, the grants give us access to documents, but they don't 
give us access to people. So being able to go in and interview 
folks and get people on the record in those kinds of fraud 
contexts is enormously important.
    Mr. Russell. Well, that's great insight. And so we've had 
some authority kind of like this in the past. It's now 
disappeared. What's the fix? It's obviously going to require 
legislative, but what are your ideas on this?
    Mr. Horowitz. Well, it would require a legislative fix. And 
to be clear, the Defense Department IG has this authority----
    Mr. Russell. Right.
    Mr. Horowitz. --and has used it very judiciously and 
appropriately. And as they've noted, just having the authority 
causes people to want to speak voluntarily, frankly, probably 
much like this committee----
    Mr. Russell. Right.
    Mr. Horowitz. --right. You don't probably have to issue 
many subpoenas to get people to come in and speak with you, but 
it helps to know that that subpoena power is there.
    We would need legislation. We worked very closely with the 
supporters of this in this committee and on the Senate side to 
put in place controls around it because it was reasonable--
there were reasonable concerns to make sure that we would use 
it in connection with people who actually benefited from 
government programs.
    We weren't running around trying to subpoena people who I'm 
not sure I would have the time to do that, but we wouldn't use 
it for that purpose. So we're prepared to sit down and address 
any concerns about the use of it, make sure there's effective 
oversight. We had talked about a three-IG panel to make sure 
that existed, and that was what was originally in the draft 
legislation we worked with the committee on. We're prepared to 
work and make sure this is used reasonably and appropriately. 
Frankly, just having the authority, I think, will cause us to 
not need to use it.
    Mr. Russell. Well, and your point on Department of Defense 
is spot on. Them having the authority really precludes a lot of 
subpoenas.
    And, Mr. Chairman, I think this is something that we ought 
to explore, that we ought to try to do, because without teeth 
behind the bark it's not really going to matter much. And for 
the record, I would like to assist this committee in that 
effort. I think that it is something worth doing.
    And I've run out of time, and I yield back.
    Chairman Gowdy. We'll do one better. We'll let you take the 
lead. Why don't you be our lead on finding a way to----
    Mr. Russell. Well, I'm happy and honored to work with the 
IGs on this issue. I do think it is--we see it in other aspects 
of government where it's very effective, it's not abused. And I 
think for our IGs to do even more incredible work, we need to 
give them the proper tools. Thank you.
    Chairman Gowdy. I thank the gentleman from Oklahoma.
    I'll now recognize myself. I'll start by thanking all three 
witnesses.
    IG Horowitz, I'm going to probably direct my questions to 
you, in part because of what you do now, and, in part, because 
of what you used to do in a very distinguished career as an 
assistant United States attorney.
    Give us the other side over the argument on compulsory 
process, because when something--it sounds like a great idea, 
and this does, the ability to compel evidence really. The fact 
that we don't have it leads me to believe that there is at 
least some argument on the other side. What would it be?
    Mr. Horowitz. So the Justice Department itself has opposed 
giving IGs----
    Chairman Gowdy. That would be an argument.
    Mr. Horowitz. And their concern is, then, that if we 
subpoena somebody and compel them to speak to us, that could 
negatively impact their ability to pursue criminal cases in 
matters they may have ongoing that we don't know about. We put 
in place a procedure in the Act to address that. The Department 
would get notice before we gave any--issued any subpoenas.
    Much like is currently in existence, as you know, from 
being an AUSA yourself, that before anybody gives immunity to 
anybody in the Justice Department, there's a central process 
for doing that to make sure an AUSA in New York doesn't harm a 
case going on by an AUSA in South Carolina, for example.
    That's what we've proposed here. And, frankly, I, as a 
former prosecutor, don't understand that argument. If I was if 
AUSA handling that case that was criminal, and they didn't know 
about our work, I'd want to know about our work, because that 
could give them additional leverage in their criminal case.
    So as a former prosecutor, frankly, I don't understand the 
argument once you've put in place the protections. And Mr. Roth 
also is a former prosecutor, and we very much respect the 
concern, and we'll work with them to put that in place. But 
there's a way to address that, I think.
    Chairman Gowdy. Well, I hope so. I think there has to be. 
The ability to simply leave your place of employment and avoid 
scrutiny or having to provide information makes it really tough 
to conduct fulsome investigations.
    Keep that same old hat on for a second.
    Mr. Horowitz. Okay.
    Chairman Gowdy. There's an issue with respect to OPR.
    Mr. Horowitz. Uh-huh.
    Chairman Gowdy. Explain for those who may not have worked 
for the Department of Justice, don't explain--don't understand 
what OPR is, what is the issue there and what are both sides of 
the argument?
    Mr. Horowitz. Okay. So the office--OPR, the Office of 
Professional Responsibility at the Justice Department, was 
created long before the IG Act was passed to look at misconduct 
by prosecutors. The head of that Office is appointed by the 
Department's leadership, the Deputy AG and the Attorney 
General, and they handle all allegations, prosecutorial 
misconduct against prosecutors for conduct in connection with 
their jobs as lawyers. So, for example, in the courtroom and 
those kinds of issues.
    That's a carve-out that exists now in the IG Act, so that 
when my office was created back in 1988, it was carved out of 
our jurisdiction. We're the only IG with this carve-out. And it 
means that while we look at misconduct by FBI agents, DEA 
agents, ATF agents, other personnel, non-lawyers in the 
Department, as well as lawyers when they engage in misconduct 
outside of work, we can't look at prosecutorial--allegations of 
prosecutorial misconduct.
    We don't see a principled reason why we should be able to 
look at FBI agents' misconduct, but not misconduct by Federal 
prosecutors. If there's--if it's important enough to have 
independent oversight by a statutorily independent IG over FBI 
agents, surely it's the same for prosecutors who wield at least 
as much power as FBI agents by their ability to act improperly 
in a courtroom.
    The flip of that has been, the Department's argument has 
been--and again, they've always opposed giving that authority 
to us--is that the Office of Professional Responsibility has 
managed that function effectively since its creation, they know 
how to do those cases, and there's no reason to change the 
process.
    It's my view that for purposes of independent oversight and 
transparency, there have been many issues coming forward in the 
last many years about questions of oversight of prosecutors. 
Several judges have raised concerns. And I think it is--people 
would be hard-pressed to explain to an FBI agent why they need 
independent oversight by an inspector general. But the 
prosecutors they're working with day in and day out, they go in 
another--through another door.
    Chairman Gowdy. Particularly, in many instances, the Bureau 
agent, herself or himself, may also be an attorney. So their 
agent conduct is scrutinized or investigated one way.
    And if I heard you correctly, Representative Hice, Cedric 
Richmond from Louisiana, have worked with you on proposing a 
legislative remedy in this area as well as the one Stevie made 
reference to?
    Mr. Horowitz. That's correct.
    Chairman Gowdy. All right.
    Mr. Horowitz. And we have--we've worked, as well, with 
bipartisan members on the Senate side to do the same.
    Chairman Gowdy. Last issue, because I'm out of time. I 
don't like to do it. But quickly, I'm not asking you about the 
merits of it, you couldn't talk about it, don't--I wouldn't ask 
you about it. But your reputation for integrity is well-
deserved, and has been around for a long time.
    You are looking into certain matters and decisions made by 
the Department of Justice in the 2016 election cycle, calendar 
year.
    Mr. Horowitz. Right.
    Chairman Gowdy. Do you have an update from a time 
standpoint? And, secondarily, are you able to access all the 
witnesses and documents that you think are necessary for you to 
conduct a fulsome investigation?
    Mr. Horowitz. And I can certainly talk to the process 
questions and the timing questions, and I appreciate your 
respecting the ability to complete that in an independent way.
    In terms of process, we have gotten all the records we've 
asked for. We've gotten them, as a general matter, in a timely 
fashion. We've interviewed dozens of people. We're not at the 
hundred level yet, but we're in the dozens range.
    We've reviewed about 1.2 million records in the course of 
the investigation, so a pretty substantial effort by the team, 
which has done great work. We are aiming to release the report 
in late winter, early spring, so hopefully in that March, April 
time period.
    Obviously, I can't commit to that because, as we've seen, 
events can arise, issues can arise that require us to do 
additional interviews or get additional records. And given 
there's a classified piece to this, as you know, it requires a 
significant process to make sure that individuals who are no 
longer at the Department or are lawyers for individuals who are 
no longer at the Department can actually be a part of those 
interviews by getting renewed clearances.
    So that's impacted somewhat the timeframe, but we're moving 
along quite expeditiously, and that's my hope.
    Chairman Gowdy. Thank you.
    I thought I was last, but the gentleman from Wisconsin has 
joined us and--I apologize. The gentlelady from Michigan. I 
didn't see you. I'm old and I can't see that far.
    Mrs. Lawrence. No, you have a lot of years left, sir.
    Thank you so much, Mr. Chair.
    Mr. Roth, 2 years ago, you testified before this committee 
after your team completed testing at TSA checkpoints that your 
team had run tests using different concealment methods at eight 
different airports. The report--you reported, and I quote, 
``The test results were disappointing and troubling.'' Is that 
right?
    Mr. Roth. That's correct.
    Mrs. Lawrence. Okay. With that being said, 2 years ago, you 
testified that, quote, ``The Department's response to our most 
recent findings have been swift.'' You said that then-Secretary 
of DHS directed that an immediate plan of action be created to 
correct deficiencies uncovered during that testing.
    Was that plan implemented? And if not, why not?
    Mr. Roth. It was implemented. The difficulty, of course, is 
that it's a massive problem in three areas: One, training 
personnel. They have over 40,000 transportation security 
officers that would need to get trained; they have technology 
issues that are going to require a long-term fix of research 
and development and deployment; and then they had process 
issues as far as their standard operating procedures missed 
certain methods of concealment that needed to get tightened up.
    They started a training program, a fairly rigorous training 
program, particularly for new employees. They are on their way 
to try to fix the technology. And then, lastly, they have, I 
think, done a pretty good job of tightening up their procedures 
with regard to that. The difficulty is the training and the 
technology piece are long-term fixes.
    Mrs. Lawrence. So with that being said, as we know that 
it's troubling to you, is absolutely troubling for the American 
citizens who are subjected to this obvious inefficiency. So we 
talked about long term. What is long term, and what is the 
expectation? I say to you that we can expect this removal of 
troubling findings that we are aware of.
    Mr. Roth. We made eight recommendations in this last audit 
report. The Department agreed with each of those eight 
recommendations. This is an enormously difficult problem, but 
it's one that's--it's going to require constant attention to 
get right.
    One of the things that we found, for example, when we did 
our covert testing this time is that we asked whether or not 
the TSOs, who we discovered deficiencies with, had gone through 
the training. And, you know, frankly, notwithstanding the fact 
that they have been training people at a record pace as a 
percentage of the workforce, only a small percentage of that 
workforce has been trained.
    You know, we found other issues that we hadn't discovered 
in our last----
    Mrs. Lawrence. What's the timeline? What is----
    Mr. Roth. I don't have the timeline. The process that we 
use is that we make our recommendations. The Department takes 
it, and in 90 days, they give us a plan. So we have not 
received that plan yet. So I can't----
    Mrs. Lawrence. I would like for this committee to be 
updated because the American people need to know what the 
expectation is, that we are in compliance.
    Mr. Roth. Yes.
    Mrs. Lawrence. I have a very important issue. As you know, 
I represent Michigan, Detroit. At the end of September, ICE 
arrested nearly 500 people in 10 different cities and regions 
across country. It's evident that many of these immigrants may 
not be dangerous. In fact, sometimes their only supposed crime 
is crossing the border before they work and pay taxes.
    Do you know currently what is ICE criteria for deciding 
which communities to target and deport? How does ICE ensure 
it's not wasting taxpayers' dollars in time by targeting non-
dangerous immigrants? And did you examine whether ICE is using 
resources in efficiency, and this new criteria of it appears to 
be rounding people up? I really need an answer for that, Mr. 
Roth.
    Mr. Roth. We have not done any specific audit work with 
regard to ICE priorities. What we have done is spend a 
considerable amount of resources on misconduct cases where 
we'll get reports of misconduct.
    For example, we're doing a series of investigations at the 
southwest border regarding individuals who have credible fear 
claims who are being turned away without having those credible 
fear claims adjudicated.
    Those are the kinds of things that we're looking at, but we 
haven't looked at and commented on specifically ICE's 
priorities or the Secretary's priorities and how it is that 
they are using those resources.
    Mrs. Lawrence. Well, it needs to be looked at. And I can 
tell you in a community that's not on the southwest border that 
we have major issues in large immigrant communities of 
disparate treatment that when we question, and I as a Member of 
Congress, there seems to be no following of an agenda or 
priority set by anyone.
    So are we just--renegade across the country. We should all 
know what the criteria and why we are operating the way we are. 
And this is something that is extremely important for our 
communities, for people who are living in our cities.
    I yield back my time.
    Chairman Gowdy. The gentlelady from Michigan yields back.
    The gentleman from Wisconsin is recognized.
    Mr. Grothman. Sure. I'll give a couple questions.
    The Inspector General Empowerment Act provided an exemption 
to inspectors general from the Computer Matching Act. Has this 
improved your oversight?
    Ms. Buller. It has the potential to greatly improve our 
oversight. It will allow IGs to use computer matching more 
efficiently. One of the problems we had with the Computer 
Matching Act to begin with was that our agencies had--were 
involved in the approval process of us being able to match.
    Since we don't have to do that anymore, it will allow IGs 
to more effectively take information from one agency and one IG 
to another IG and match it, and ferret out more improper 
payments and fraud.
    Mr. Grothman. Good. Could you give me some specific 
examples?
    Mr. Roth. I can tell you about what happened when we didn't 
have it before and the delays that were incurred. We took a 
look at the individuals who have what's called a SIDA badge, 
which is a secure identification access card to parts of the 
airport where airplanes are. Obviously, you're supposed to have 
a specific security clearance for that or certain background 
check for it.
    So we took a list of those folks, which is 900,000 people, 
and we bounced it against the list that the intelligence 
community has, what they call their TIDE database, which is the 
Terrorist Identities Datamart Environment, basically it's their 
list of all known or suspected terrorists.
    Hopefully, those two subsets of information, there would be 
no individuals who were in both subsets. What we found, in 
fact, were that the 73 individuals who were on this terror list 
also had access to secure parts of the airport, obviously of 
considerable concern to TSA and aviation security.
    It took us 18 months just to get the approval for the 
computer matching. So that is the kind of delay that is now 
gone as a result of the Computer Matching Act. And I know, from 
our point of view, we're going to be using it on these 
hurricane relief efforts significantly.
    If I can take the list of people who are FEMA recipients 
for housing and bounce that against the HUD database of people 
who are receiving those very same benefits, see who falls out, 
and then we know that people are getting duplicate payments.
    Mr. Grothman. Thank you.
    Mr. Horowitz. And let me just add, one of the things that 
myself and Vice Chair Allison Lerner have done in meeting with 
OMB is encourage them to consider a pilot program with several 
cabinet-level agencies to look at whether there's improper 
benefits going to employees of those agencies, or other 
recipients of those agencies that are duplicative of benefits, 
whether it's disability or Section 8 housing or food stamps or 
any of the other large Federal programs out there, to try and 
use our authority in a way that would find these duplicative 
payments.
    GAO has reported that number is well in excess of $100 
billion a year. So it's an important tool that you've given us, 
and we're using it in several instances.
    Mr. Grothman. Thanks. Hopefully all the agencies will take 
advantage of your findings. We'll see.
    I'll give you one more question, Mr. Roth, since you 
brought it up. When you talk about people coming into this 
country because they're fearful, which countries are people 
coming here from that they're fearful?
    Mr. Roth. I don't have data anecdotally. The agents tell me 
on the southwest border that it's largely Central American 
countries, but I don't have the specifics or numbers. I'm sure 
that you can get that from USCIS, for example.
    Mr. Grothman. Okay. They're not adjacent to the country. 
Are we supposed to take in somebody here--or how would they be 
getting in here from a South/Central American country?
    Mr. Roth. I mean, typically the immigration patterns are 
through Mexico.
    Mr. Grothman. Are they endangered in Mexico or just 
endangered in----
    Mr. Roth. Again, we don't look at those. All we look at is 
whether or not the Department is following the policy that has 
already in place rather than the wisdom of the policy itself.
    Mr. Grothman. Okay. Thanks much, and I'll yield the 
remainder of my time.
    Chairman Gowdy. The gentleman from Wisconsin yields back.
    The gentleman from Maryland, Professor Raskin is 
recognized.
    Mr. Raskin. Mr. Chairman, thank you very much. And I'm 
delighted to be with you guys. Forgive me, I had another 
hearing, so I had to step out.
    But I'm excited to ask a few questions to Mr. Horowitz. And 
I want to ask you about a June 29 letter that the Democrats on 
this Committee in Judiciary sent to you raising concerns that 
Attorney General Sessions may have departed from his decision 
to recuse himself when he participated personally and directly 
in President Trump's decision to dismiss FBI Director Comey.
    You received that letter, right?
    Mr. Horowitz. Yes.
    Mr. Raskin. The reason we wrote you is because the Attorney 
General said he was recusing from all matters relating to the 
2016 campaign, both the Trump campaign and the Clinton 
campaign, but then worked directly with President Trump and the 
Deputy Attorney General to fire Mr. Comey, the FBI Director.
    And it was said they were firing Comey because of the way 
he handled the Clinton investigation. In reality, of course, 
the President admitted both to a group of visiting Russians in 
his office and on national TV that he fired Director Comey 
because of his distaste for the Russian investigation, and that 
Comey was becoming a problem for him.
    My question is whether your office is investigating the 
issues we raised in our letter, whether the Attorney General 
violated his decision to recuse when he undertook these 
actions?
    Mr. Horowitz. So we did receive the letter. And one of the 
things that, whenever we get a request like that, in any space 
is, is there an ongoing department investigation? And as you 
know, there was a special counsel appointed. The request from--
the letter request relates to matters that could touch on that 
investigation.
    And one of the things that we try and do as IGs is, 
obviously, defer, continue to consider and assess the--a 
request like that when there's an ongoing Department 
investigation. So we have not made a final decision on that.
    Mr. Raskin. Gotcha. Did you say, I'm sorry, you have not 
made a----
    Mr. Horowitz. We have not made a decision on that.
    Mr. Raskin. I gotcha. Okay. Because I understand that as a 
general policy, but if the subject is--if the subject of the 
investigation is the recusal of the Attorney General or another 
high official, him or herself, one would think that the IG 
policy would have to adjust for that, right?
    Mr. Horowitz. And obviously every situation, it depends on 
the specific facts. I think one of the things we generally try 
and do is hold in abeyance any activity while there is an 
ongoing FBI or special counsel--in this case, special counsel 
investigation----
    Mr. Raskin. Gotcha.
    Mr. Horowitz. --under the FBI. That's what we're doing 
here. And----
    Mr. Raskin. But it's still--the ball is still in spin, it 
sounds like?
    Mr. Horowitz. The ball is still in my court.
    Mr. Raskin. It's in your court, okay.
    Monday, DOJ sent a letter to the Judiciary Committee saying 
that the Attorney General had been directly involved in 
decisions regarding the appointment of a special counsel to 
investigate, and I quote, ``the sale of Uranium One alleged 
unlawful dealings related to the Clinton Foundation and other 
matters.''
    The letter says the AG directed senior Federal prosecutors 
to evaluate whether a special counsel should be appointed, and 
told them to report their findings directly to the Attorney 
General and Deputy Attorney General.
    So this letter indicates that the AG is not recusing 
himself from these matters and is still directly involved, and 
seems to contradict what he claimed he had been doing before, 
which was to recuse himself from them.
    Now, I know--I understand your position, that your--as long 
as it appears like something is going on, you're not going to 
get involved. But I just want to know whether you agree with me 
to the importance of this matter.
    At the Attorney General's confirmation hearing on January 
10, he testified, and I quote, ``I believe the proper thing for 
me to do would be to recuse myself from any questions involving 
those kinds of investigations that involve Secretary Clinton 
and that were raised during the campaign or be otherwise 
connected to it.''
    Remember, one of the pervasive chants of the campaign and 
was, ``Lock her up,'' and they were raising all these questions 
about the Clinton Foundation.
    Senator Grassley asked him a follow-up question, and I 
quote, he said, ``To be very clear, you intend to recuse 
yourself from both the Clinton email investigation and any 
matters involving the Clinton Foundation, if there are any?''
    And the Attorney General responded, and I quote, ``Yes.''
    So he testified under oath, he would have nothing to do 
with any investigations that involved Secretary Clinton that 
were raised as a political football during the campaign or that 
were otherwise connected to it, and he explicitly referred to 
the Clinton Foundation. But the letter that we saw on Monday 
from DOJ suggests the opposite, that he's working directly on 
these matters when he shouldn't be.
    And I understand it's complicated because you're dealing 
with investigations that might relate to people within the 
Department of Justice. But will you please agree to look into 
this and report back to us as soon as you have an update and a 
resolution as to what you think the proper role of the IG is?
    Mr. Horowitz. Yeah. As I said, I will certainly be in that 
position with the prior letter and be happy to receive any 
additional information about Monday's letter or--Monday's 
letter to the Congress, or any other matter. We, I'll just say 
as a general matter, take conflict-of-interest matters and 
recusal matters. Those are important.
    Obviously, much of it turns on the conflict-of-interest 
laws and the regulations, which, as you know, are somewhat 
arcane and complex. But we're certainly happy to take under 
advisement any matter that a Member of Congress or the 
committee wishes us to take--to consider and assess.
    Mr. Raskin. Thank you.
    And I yield back to you, Mr. Chairman.
    Chairman Gowdy. The gentleman from Maryland yields back.
    I want to thank our witnesses. On behalf of Mr. Cummings 
and all the other members and myself, thank all of you for 
appearing before us today.
    The hearing record will remain open for 2 weeks for any 
member to submit a written opening statement or questions for 
the record.
    There is no further business. Without objection, the 
committee stands adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
                

                                 [all]





</pre></body></html>
